Audit Report




OIG-12-023
Audit of the Exchange Stabilization Fund’s Fiscal Years
2011 and 2010 Financial Statements


December 7, 2011




Office of
Inspector General
Department of the Treasury
                                         DEPARTMENT OF THE TREASURY
                                               W ASHINGTON, D.C. 20220




     OFFICE OF                                   December 7, 2011
INSPECTOR GENERAL




            MEMORANDUM FOR MARK SOBEL
                           DEPUTY ASSISTANT SECRETARY FOR INTERNATIONAL
                           MONETARY AND FINANCIAL POLICY

            FROM:                    Michael Fitzgerald
                                     Director, Financial Audits

            SUBJECT:                 Audit of the Exchange Stabilization Fund’s Fiscal Years 2011
                                     and 2010 Financial Statements


            I am pleased to transmit the attached audited Exchange Stabilization Fund (ESF)
            financial statement for fiscal years 2011 and 2010. Under a contract monitored by the
            Office of Inspector General, KPMG LLP, an independent certified public accounting firm,
            performed an audit of the financial statements of ESF as of September 30, 2011 and
            2010 and for the years then ended. The contract required that the audit be performed in
            accordance with generally accepted government auditing standards; applicable
            provisions of Office of Management and Budget Bulletin No. 07-04, Audit Requirements
            for Federal Financial Statements, as amended; and the GAO/PCIE Financial Audit
            Manual.

            The following reports, prepared by KPMG LLP, are incorporated in the attachment:

                    •   Independent Auditors’ Report;
                    •   Independent Auditors’ Report on Internal Control Over Financial Reporting;
                        and
                    •   Independent Auditors’ Report on Compliance and Other Matters.

            In its audit, KPMG LLP found:

                    •   the financial statements were fairly presented, in all material respects, in
                        conformity with U.S. generally accepted accounting principles;
                    •   no deficiencies in internal control over financial reporting that are considered
                        material weaknesses; and
                    •   no instances of reportable noncompliance with laws and regulations tested.
Page 2

In connection with the contract, we reviewed KPMG LLP’s reports and related
documentation and inquired of its representatives. Our review, as differentiated from an
audit performed in accordance with generally accepted government auditing standards,
was not intended to enable us to express, and we do not express, an opinion on the
financial statements or conclusions about the effectiveness of internal control or
compliance with laws and regulations. KPMG LLP is responsible for the attached
auditors’ reports dated December 1, 2011 and the conclusions expressed in the reports.
However, our review disclosed no instances where KPMG LLP did not comply, in all
material respects, with generally accepted government auditing standards.

Should you have any questions, please contact me at (202) 927-5789, or a member of
your staff may contact Catherine Yi, Manager, Financial Audits at (202) 927-5591.

Attachment
DEPARTMENT OF THE TREASURY
EXCHANGE STABILIZATION FUND

       Financial Report

       Fiscal Year 2011
                                DEPARTMENT OF THE TREASURY
                                EXCHANGE STABILIZATION FUND

                                         Table of Contents




                                                                            Page


Policy and Operations Statements                                              1
Independent Auditors’ Report                                                  4
Independent Auditors’ Report on Internal Control Over Financial Reporting     5
Independent Auditors’ Report on Compliance and Other Matters                  7
Financial Statements:
   Statements of Financial Position                                           8
   Statements of Income and Comprehensive Income and Retained Earnings        9
   Statements of Cash Flows                                                  10
Notes to Financial Statements                                                11
                         EXCHANGE STABILIZATION FUND
                       POLICY AND OPERATIONS STATEMENTS
                                FISCAL YEAR 2011



The Nature and Function of the Exchange Stabilization Fund

The Gold Reserve Act of 1934 established a fund to be operated by the Secretary of the
Treasury, with the approval of the President. Section 10 of the Act provided that “For the
purpose of stabilizing the exchange value of the dollar, the Secretary of the Treasury, with the
approval of the President, directly or through such agencies as he may designate, is authorized,
for the account of the fund established in this section, to deal in gold and foreign exchange and
such other instruments of credit and securities as he may deem necessary to carry out the purpose
of this section.” To this end, the Congress, in 1934, appropriated to the Exchange Stabilization
Fund (ESF) the sum of $2 billion out of the increment resulting from the reduction in the “weight
of the gold dollar.” Subsequent amendments to the Gold Reserve Act approved the operation of
the ESF through June 30, 1945. Section 7 of the Bretton Woods Agreements Acts, approved
July 31, 1945, continued its operations permanently.

The Bretton Woods Agreements Act also directed the Secretary of the Treasury to pay
$1.8 billion from the ESF to the International Monetary Fund (IMF), for the initial U. S. quota
subscription in the IMF, thereby reducing the ESF’s appropriated capital to $200 million.

Reflecting termination of the fixed exchange rate system, legislation enacted in 1976
(P.L. 94-564, October 19, 1976) amended the language of Section 10 of the Gold Reserve Act to
specify that the ESF is to be utilized as the Secretary “may deem necessary to and consistent
with the United States obligations in the International Monetary Fund.” This amendment
became effective on April 1, 1978, the date of entry into force of the Second Amendment of the
IMF Articles of Agreement. In 1977, P.L. 95-147 further amended Section 10 of the Gold
Reserve Act. Following codification, Section 10 now provides in relevant part:

   Consistent with the obligations of the Government in the International Monetary Fund on
   orderly exchange arrangements and a stable system of exchange rates, the Secretary or an
   agency designated by the Secretary, with the approval of the President, may deal in gold,
   foreign exchange, and other instruments of credit and securities the Secretary considers
   necessary. However, a loan or credit to a foreign entity or government of a foreign country
   may be made for more than 6 months in a 12-month period only if the President gives
   Congress a written statement that unique or emergency circumstances require the loan or
   credit be for more than 6 months (31 U.S.C. 5302 (b)).

Pursuant to the Special Drawing Rights Act of 1968 (P.L. 90-349, amended by P.L. 94-564),
Special Drawing Rights (SDRs) allocated by the IMF to the United States or otherwise acquired
by the United States are resources of the ESF.

Section 286p of Title 22 of the United States Code allows for SDRs to be
monetized/demonetized through the issuance/redemption by the Secretary of the Treasury of
SDR certificates to the Federal Reserve Banks in exchange for dollars. The total amount of SDR


Unaudited – see accompanying auditor’s report                                                  1
                          EXCHANGE STABILIZATION FUND
                        POLICY AND OPERATIONS STATEMENTS
                                 FISCAL YEAR 2011



certificates outstanding cannot exceed the dollar equivalent of ESF (i.e., U. S.) holdings of
SDRs; such certificates are a liability of the ESF.

I.    Foreign Currency Operations

      a. Intervention

         During fiscal year 2011, the ESF engaged in an intervention with Japan. ESF sold
         40.8075 billion yen, $500 million equivalent of yen.

      b. Euros and Japanese Yen

         The ESF had a net valuation gain of $1.144 billion on its holdings of euros and yen.
         The ESF had investment income of $250.5 million equivalent on its euro and yen
         assets.

      c. Mexico

         In December 2010, the Treasury and Federal Reserve Bank of New York, acting as
         Treasury’s fiscal agent, renewed the Exchange Stabilization Agreement with Mexico
         for another year to December 2011.

II.   SDR Operations

      As of September 30, 2011, U.S. holdings (assets) of SDRs totaled SDR 35.8 billion
      ($55.9 billion equivalent), a net decrease of SDR 1.1 billion during Fiscal Year 2011.
      However, as the SDR appreciated against the dollar in this period, there was a net valuation
      gain of $229.4 million on U.S. holdings of SDRs. The ESF reimbursed the Treasury’s
      General Fund $63.1 million for SDRs received from the IMF as remuneration on the U.S.
      reserve position in the IMF. The ESF received $1.9 billion from the Treasury’s General
      Fund for the IMF Quota increase. The ESF earned interest of $250.1 million equivalent on
      its SDR holdings.

      As of September 30, 2011, cumulative allocations to (liabilities of) the United States
      totaled SDR 35.3 billion ($55.1 billion equivalent). These liabilities would come due only
      in the event of liquidation of, or U.S. withdrawal from, the SDR Department of the IMF, or
      cancellation of SDRs.

      There were $5.2 billion of SDR certificates that had been issued to the Federal Reserve
      System prior to fiscal year 2011.




Unaudited – see accompanying auditor’s report                                                   2
                        EXCHANGE STABILIZATION FUND
                      POLICY AND OPERATIONS STATEMENTS
                               FISCAL YEAR 2011



III. Income and Expense

     Interest revenue totaled $514.9 million, consisting of $14.3 million in interest on dollar
     holdings invested in U.S. Government securities, $250.1 million equivalent in interest on
     SDR holdings, and $250.5 million equivalent in interest on foreign currency investments.

     Interest expense totaled $244.0 million, primarily representing interest charges on SDR
     Allocations.




Unaudited – see accompanying auditor’s report                                                3
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036-3389



                                         Independent Auditors’ Report


Inspector General
U.S. Department of the Treasury:

We have audited the accompanying statements of financial position of the U.S. Department of the
Treasury’s Exchange Stabilization Fund (“ESF”) as of September 30, 2011 and 2010, and the related
statements of income and comprehensive income and retained earnings, and cash flows, (hereinafter
referred to as “financial statements”) for the years then ended. These financial statements are the
responsibility of the ESF’s management. Our responsibility is to express an opinion on these financial
statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the financial statements are free of material misstatement. An audit includes consideration of
internal control over financial reporting as a basis for designing audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of the ESF’s internal
control over financial reporting. Accordingly, we express no such opinion. An audit also includes
examining, on a test basis, evidence supporting the amounts and disclosures in the financial statements,
assessing the accounting principles used and significant estimates made by management, as well as
evaluating the overall financial statement presentation. We believe that our audits provide a reasonable
basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the ESF as of September 30, 2011 and 2010, and the results of its operations and its
cash flows for the years then ended in conformity with U.S. generally accepted accounting principles.

Our audits were conducted for the purpose of forming an opinion on the financial statements taken as a
whole. The information in the Policy and Operations Statements section on pages 1 to 3 is presented for
purposes of additional analysis and are not required as part of the financial statements. This information
has not been subjected to auditing procedures and, accordingly, we express no opinion on it.

In accordance with Government Auditing Standards, we have also issued our reports dated December 1,
2011, on our consideration of the ESF’s internal control over financial reporting and our tests of its
compliance with certain provisions of laws, regulations, contracts, and other matters. The purpose of those
reports is to describe the scope of our testing of internal control over financial reporting and compliance
and the results of that testing, and not to provide an opinion on the internal control over financial reporting
or on compliance. Those reports are an integral part of an audit performed in accordance with Government
Auditing Standards and should be read in conjunction with this report in assessing the results of our audits.




December 1, 2011
                                                                                                             4
                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036-3389




             Independent Auditors’ Report on Internal Control Over Financial Reporting


Inspector General
U.S. Department of the Treasury:

We have audited the statements of financial position of the U.S. Department of the Treasury’s Exchange
Stabilization Fund (“ESF”) as of September 30, 2011 and 2010 and the related statements of income and
comprehensive income and retained earnings, and cash flows (hereinafter referred to as “financial
statements”) for the years then ended, and have issued our report thereon dated December 1, 2011.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the financial statements are free of material misstatement.

The management of the ESF is responsible for establishing and maintaining effective internal control. In
planning and performing our fiscal year 2011 audit, we considered the ESF’s internal control over financial
reporting by obtaining an understanding of the design effectiveness of the ESF’s internal control,
determining whether internal controls had been placed in operation, assessing control risk, and performing
tests of controls as a basis for designing our auditing procedures for the purpose of expressing our opinion
on the financial statements, but not for the purpose of expressing an opinion on the effectiveness of the
ESF’s internal control over financial reporting. Accordingly, we do not express an opinion on the
effectiveness of the ESF’s internal control over financial reporting. We did not test all internal controls
relevant to operating objectives as broadly defined by the Federal Managers’ Financial Integrity Act of
1982.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis.

Our consideration of internal control over financial reporting was for the limited purpose described in the
third paragraph of this report and was not designed to identify all deficiencies in internal control over
financial reporting that might be deficiencies, significant deficiencies, or material weaknesses. In our fiscal
year 2011 audit, we did not identify any deficiencies in internal control over financial reporting that we
consider to be material weaknesses, as defined above.




                                                                                                              5
                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
This report is intended solely for the information and use of the ESF’s management, the U.S. Department
of the Treasury’s Office of Inspector General, OMB, the U.S. Government Accountability Office, and the
U.S. Congress and is not intended to be and should not be used by anyone other than these specified
parties.




December 1, 2011




                                                                                                     6
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036-3389




                   Independent Auditors’ Report on Compliance and Other Matters


Inspector General
U.S. Department of the Treasury:

We have audited the statements of the financial position of the U.S. Department of the Treasury’s
Exchange Stabilization Fund (“ESF”) as of September 30, 2011 and 2010, and the related statements of
income and comprehensive income and retained earnings, and cash flows (hereinafter referred to as
“financial statements”) for the years then ended, and have issued our report thereon dated December 1,
2011.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether
the financial statements are free of material misstatement.

The management of the ESF is responsible for complying with laws, regulations, and contracts applicable
to the ESF. As part of obtaining reasonable assurance about whether the ESF’s financial statements are free
of material misstatement, we performed tests of the ESF’s compliance with certain provisions of laws,
regulations, and contracts, noncompliance with which could have a direct and material effect on the
determination of the financial statement amounts. We limited our tests of compliance to the provisions
described in the preceding sentence, and we did not test compliance with all laws, regulations, and
contracts applicable to the ESF. However, providing an opinion on compliance with those provisions was
not an objective of our audit, and accordingly, we do not express such an opinion.

The results of our tests of compliance described in the preceding paragraph of this report, disclosed no
instances of noncompliance or other matters that are required to be reported herein under Government
Auditing Standards or OMB Bulletin No. 07-04.

This report is intended solely for the information and use of the ESF’s management, the U.S Department of
the Treasury’s Office of Inspector General, OMB, the U.S. Government Accountability Office, and the
U.S. Congress and is not intended to be and should not be used by anyone other than these specified
parties.




December 1, 2011




                                                                                                         7
                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
DEPARTMENT OF THE TREASURY
EXCHANGE STABILIZATION FUND
STATEMENTS OF FINANCIAL POSITION
(In Thousands)
As of September 30                                                                  2011            2010

Assets
Cash and Cash Equivalents (Note 2)                                             $    30,974,114 $    28,520,996
Securities Purchased Under Agreement to Resell (Note 3)                              2,505,269       2,503,143
Investment Securities and Other Foreign Currency Denominated Assets (Note 5)        15,671,256      15,353,238
Special Drawing Right Holdings (Note 4)                                             55,875,301      57,410,474
Interest Receivable                                                                    114,112         113,597
Interest Receivable on Special Drawing Right Holdings                                   35,607          28,815
Total Assets                                                                   $   105,175,659 $   103,930,263

Liabilities and Equity

Liabilities:
   Certificates Issued to Federal Reserve Banks (Note 7)                       $     5,200,000 $     5,200,000
   Special Drawing Right Allocations (Note 4)                                       55,149,673      54,957,909
   Interest Payable on Special Drawing Right Allocations                                35,145          27,585
   Other                                                                                   313             182
Total Liabilities                                                                   60,385,131      60,185,676

Commitments and Contingencies (Note 9)

Equity:
  Appropriated Capital                                                                 200,000         200,000
  Retained Earnings                                                                 43,823,544      42,371,994
  Accumulated Other Comprehensive Income (Note 6)                                      766,984       1,172,593
Total Equity                                                                        44,790,528      43,744,587
Total Liabilities and Equity                                                   $   105,175,659 $   103,930,263

See accompanying notes to financial statements.




                                                                                                                 8
DEPARTMENT OF THE TREASURY
EXCHANGE STABILIZATION FUND
STATEMENTS OF INCOME AND COMPREHENSIVE INCOME AND RETAINED EARNINGS
(In Thousands)

For the years-ended September 30                                                         2011           2010

Interest Income
   Interest on Cash and Cash Equivalents                                             $      47,459 $        32,390
   Interest on Securities Purchased Under Agreement to Resell                               19,175           7,320
   Interest on Government Sponsored Enterprise Securities                                        -             150
   Interest on Investment Securities and Other Foreign Currency Denominated Assets         198,123         210,450
   Interest on Special Drawing Right Holdings                                              250,143         147,140
Total Interest Income                                                                      514,900         397,450

Interest Expense
   Interest on Special Drawing Right Allocations                                          (243,958)      (141,003)
   Interest on Special Drawing Right -
      Remuneration due to the U.S. Treasury                                                       (3)            (3)
Total Interest Expense                                                                    (243,961)      (141,006)

Net Interest Income                                                                       270,939         256,444

Net Gains/(Losses)
  Gain/(Loss) on Foreign Currency Valuation of:
     Special Drawing Rights Holdings                                                       230,832      (1,039,862)
     Special Drawing Rights Allocations                                                   (193,105)        994,821
     Investment Securities and Other Foreign Currency Denominated Assets,
        net (Notes 1 and 5)                                                              1,171,738        121,262
     Securities Purchased Under Agreement to Resell                                        (27,973)      (172,821)
                 Total Net Gains/(Losses)                                                1,181,492        (96,600)

Other Expenses
  International Monetary Fund Annual Assessment                                                 (881)          (392)

Net Income                                                                               1,451,550        159,452

Other Comprehensive Income
  Unrealized Holding (Loss) (Notes 1 and 6)                                               (405,609)      (261,377)
Comprehensive Income/(Loss)                                                          $   1,045,941 $     (101,925)

Retained Earnings, Beginning of Year                                                 $   42,371,994 $   42,212,542

Net Income                                                                               1,451,550         159,452

Retained Earnings, End of Year                                                       $   43,823,544 $   42,371,994

See accompanying notes to financial statements.




                                                                                                                    9
DEPARTMENT OF THE TREASURY
EXCHANGE STABILIZATION FUND
STATEMENTS OF CASH FLOWS
(In Thousands)

For the years-ended September 30                                                         2011           2010

Cash Flows from Operating Activities:
  Interest Received on:
     Cash and Cash Equivalents                                                      $        46,599 $       32,513
     Securities Purchased Under Agreement to Resell                                          19,124          7,318
     Investment Securities and Other Foreign Currency
        Denominated Assets                                                                  241,541        236,031
     Government Sponsored Enterprises                                                             -             150
  Other                                                                                      (7,759)        (1,706)
Net Cash Provided by Operating Activities                                                   299,505        274,306

Cash Flows from Investing Activities:
  Maturities of Government Sponsored Enterprises Securities                                       -     1,100,000
  Net Purchases/Maturities of Securities Purchased Under
    Agreement to Resell                                                                     (30,099)      (33,398)
  Purchases of Investment Securities and Foreign Currency
    Denominated Assets                                                                  (10,155,496)    (9,286,464)
  Maturities of Investment Securities and Foreign Currency
    Denominated Assets                                                                  10,298,549      8,664,544
  Reimbursement for Remuneration Received                                                  (63,077)       (23,470)
  Purchase of Special Drawing Rights                                                      (140,775)      (476,707)
  IMF Quota Increase                                                                     1,974,719              -
  Other                                                                                        751            391
Net Cash Provided by/(Used) in Investing Activities                                      1,884,572        (55,104)

  Effect of Exchange Rate on Cash                                                          269,041       (182,670)

Net Increase in Cash and Cash Equivalents                                                2,453,118          36,532

Cash and Cash Equivalents,
  Beginning of Year                                                                      28,520,996     28,484,464

Cash and Cash Equivalents,
  End of Year                                                                       $    30,974,114 $   28,520,996

Reconciliation of Net Income to Net Cash Provided by
  Operating Activities
  Net Income                                                                        $    1,451,550 $       159,452
  Adjustments to Reconcile Net Income to Net Cash Provided by
    Operating Activities:
        Net Exchange Rate (Gain)/Loss on Repos, FCDAs, and Investment Securities         (1,107,748)        51,559
        (Increase) Decrease in Special Drawing Right Holdings Due to Valuation             (229,412)     1,040,255
        Net Increase in Special Drawing Rights Holdings                                      (7,033)        (5,803)
        (Increase)/Decrease in Accrued Interest Receivable                                   (7,307)        11,371
        (Decrease)/Increase in Special Drawing Right Allocations Due to Valuation           191,764      (995,196)
        Increase in Accrued Interest Payable and Other                                         7,691        12,668
  Total Adjustments                                                                      (1,152,045)      114,854
Net Cash Provided by Operating Activities                                           $       299,505 $      274,306

See accompanying notes to financial statements.




                                                                                                                  10
                                 DEPARTMENT OF THE TREASURY
                                 EXCHANGE STABILIZATION FUND
                                NOTES TO FINANCIAL STATEMENTS
                                    September 30, 2011 and 2010



NOTE 1 – SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES

A.    Entity

The Exchange Stablization Fund (ESF) was originally established pursuant to section 10 of the Gold
Reserve Act of 1934 for the purpose of stabilizing the exchange value of the dollar. Section 10 has been
amended several times since 1934. This section currently authorizes the Secretary, with the approval of the
President, to deal in gold, foreign exchange, and instruments of credit and securities consistent with US
obligations in the International Monetary Fund on orderly exchange arrangements and a stable system of
exchange rates (31 U.S.C. 5302(b)).

The Federal Reserve Bank of New York (FRBNY) acts as the fiscal agent for the ESF, as permitted by the
Federal Reserve Act. As the fiscal agent, the FRBNY plays a significant role in the processing of foreign
currency transactions that the Secretary of the Treasury authorizes. The manager of the ESF foreign
currency portfolio at the FRBNY consults regularly with the Federal Open Market Committee and the U.S.
Department of the Treasury (Treasury) about the disposition of investments and the status of the portfolio.
The level and currency composition of the ESF foreign currency portfolio are the products of Treasury
policy determinations. The ESF management is responsible for the record keeping and investment decisions
for foreign currency transaction activity carried out by the FRBNY.

By law, the ESF is not available to pay administrative expenses. Instead the Treasury’s Office of
International Affairs has responsibility for managing ESF operations, and Treasury’s Office of Financial
Management provides the recordkeeping and financial reporting services for the ESF. These Treasury
offices bear all administrative expenses of the ESF. Accordingly, there are no administrative expenses
reported in the financial statements.

B.      Basis of Accounting and Presentation

The ESF has historically prepared its financial statements in accordance with generally accepted accounting
principles, based on accounting standards issued by the Financial Accounting Standards Board (FASB), the
private-sector standards-setting body.

C.    Risks and Uncertainties

The ESF faces certain risks and uncertainties as a result of holding foreign currency securities. The price of
ESF’s holdings of such securities may widely fluctuate as result of volatility in foreign currency markets and
changes in real and perceived credit of ESF’s counterparties. Credit risk related to its holdings, is the
potential, no matter how remote, for financial loss from a failure of a borrower or counterparty to perform in
accordance with underlying contractual obligations.

The preparation of financial statements requires management to make estimates and assumptions that affect
the reported amounts of assets, liabilities, and disclosures of contingent assets and liabilities at the date of
the financial statements and the reported amounts of revenues and expenses during the reporting period.
Significant estimates are used in the preparation of amounts related to the valuation of investments and
contingent liabilities. Actual results could differ from those estimates.




                                                                                                             11
                                  DEPARTMENT OF THE TREASURY
                                  EXCHANGE STABILIZATION FUND
                                 NOTES TO FINANCIAL STATEMENTS
                                     September 30, 2011 and 2010



NOTE 1 – SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES (Continued)

D.    Cash and Cash Equivalents

Cash equivalents are short-term, highly liquid investments that are both readily convertible to known
amounts of cash, and so near their maturity that they present insignificant risk of change in value due to
changes in interest rates. Cash and Cash Equivalents consist of the following:

  •   U.S. Government Securities

  •   Short-term Foreign Currency Denominated Assets (FCDAs) – including deposits and securities
      denominated in both euro and yen

E.    Investments

Held-to-maturity securities are those securities in which the entity has the ability and intent to hold the
security until maturity. Held-to-maturity securities are recorded at amortized cost, adjusted for the
amortization and accretion of premiums or discounts.

Trading securities are bought and held principally for the purpose of selling them in the near term. ESF has
no securities classified as trading.

Available-for-sale securities are those which are neither trading nor held-to-maturity. ESF’s Other FCDAs
and investment securities are classified as available-for-sale. Available-for-sale securities are recorded at fair
value. Unrealized holding gains and losses on available-for-sale securities, including gains and losses related
to foreign currency valuation are excluded from earnings and are reported as a separate component of
accumulated other comprehensive income until realized. Realized gains and losses from the sale of
available-for-sale securities are determined on a specific-identification basis.

Interest on investments, amortization of premiums, and accretion of discounts are reported in Interest
Income and are recognized on an accrual basis. Premiums and discounts are amortized or accreted over the
life of the related investment security as an adjustment to yield using the effective–interest method.

Foreign currency assets (FCA) include interest-bearing foreign deposit accounts and investments in foreign
government securities.

FCAs also include FCDAs reported as Cash and Cash Equivalents, Other FCDAs, and Investment
Securities. These categorizations are based on maturity. FCDAs have terms of 3 months or less. Other
FCDAs have terms of less than or equal to a year but greater than 3 months and Investment Securities have
terms greater than a year.

F. Securities Purchased Under Agreement to Resell

Securities Purchased Under Agreement to Resell, generally have agreement terms that do not exceed 90
days, and these are generally treated as collateralized financial transactions and are carried at amounts at
which the securities were acquired, adjusted for translation gains/losses if such agreements pertained to
FCAs.

                                                                                                               12
                                  DEPARTMENT OF THE TREASURY
                                  EXCHANGE STABILIZATION FUND
                                 NOTES TO FINANCIAL STATEMENTS
                                     September 30, 2011 and 2010



NOTE 1 – SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES (Continued)

G.       Foreign Currency Valuations

In accordance with Foreign Currency Matters (FASB ASC 830), FCAs as well as Special Drawing Rights
and related accrued interest receivable or payable, discussed below, are revalued to reflect current exchange
rates in effect as of the reporting date. Such gains or losses, recognized in the period of the fluctuations, are
reported on the Statements of Income and Comprehensive Income and Retained Earnings as Gains (Losses)
on Foreign Currency Valuation. Gains and losses related to foreign currency valuations of Investment
Securities and Other FCDAs are excluded from earnings and are reported as a component of other
comprehensive income until realized.

H.       Fair Values of Financial Instruments

Fair Value Measurements and Disclosures (FASB ASC 820-10) establishes a fair value hierarchy that
prioritizes the inputs to valuation techniques used to measure fair value. The hierarchy gives the highest
priority to unadjusted quoted prices in active markets for identical assets or liabilities (Level 1
measurements) and lowest priority to measurements involving significant unobservable inputs (Level 3
measurements). The three levels of the fair value hierarchy are as follows:

     •    Level 1 inputs are quoted prices (unadjusted) in active markets for identical assets or liabilities
          that the ESF has the ability to access at the measurement date.

     •    Level 2 inputs are inputs other than quoted prices included within Level 1 that are observable for
          the asset or liability, either directly or indirectly.

     •    Level 3 inputs are unobservable inputs for the asset or liability.

All of the ESF’s investments, except for the Securities Purchased under Agreement to Resell, are Level 1
measurements since these financial assets are traded in active markets where quotable values are readily
available. Securities Purchased under Agreement to Resell are considered Level 2 as they are not traded
on active exchanges; however, there are similar securities that can be used to estimate fair value.

I.       Other-than-temporary-Impairment

A decline in the market value of any investment below cost that is deemed to be other-than-temporary is
accounted for as an impairment and the carrying value is reduced to fair value for financial statement
reporting purposes. The impairment is charged to earnings and the charge establishes a new cost basis for
the investment. To determine whether an impairment is other-than-temporary, the ESF considers whether
it has the ability and intent to hold the investment until a market price recovery and considers whether
evidence indicating the cost of the investment is recoverable outweighs evidence to the contrary.
Evidence considered in this assessment includes the reasons for the impairment, the severity and duration
of the impairment, changes in value subsequent to year-end, forecasted performance of the investee and
the general market condition in the geographic area or industry the investee operates in. ESF regularly
evaluates whether unrealized losses on investment securities indicate other-than-temporary impairment
that would require recognition in the financial statements.


                                                                                                              13
                                DEPARTMENT OF THE TREASURY
                                EXCHANGE STABILIZATION FUND
                               NOTES TO FINANCIAL STATEMENTS
                                   September 30, 2011 and 2010



NOTE 1 – SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES (Continued)

J.    Certificates Issued to Federal Reserve Banks

Certificates issued to Federal Reserve Banks (FRB) are reflected on the Statements of Financial Position
at their face value. Under the terms of the agreement, there is no set repayment date and no interest
accrued while certificates remain outstanding. As a result, the carrying amount represents the face value.

K.    U.S. Government Securities

The ESF invests dollars in excess of its immediate needs in overnight, nonmarketable U.S. government
securities issued by the Treasury. The interest rate earned on the investments is equal to the overnight
repurchase agreement rate as established by the Treasury’s Bureau of Public Debt.

L.    Other Comprehensive Income

Accumulated Other Comprehensive Income (Loss) is made up only of changes in the fair value of
investments classified as available-for-sale. Unrealized gains and losses, if any, would subsequently be
reclassified into income in the same period the underlying investment is either sold or transferred to the
Trading classification.

M.    Tax-Exempt Status

As a component of the Treasury, which is a federal agency, the ESF is not subject to federal, state, or
local income taxes, and accordingly, no provision for income taxes is recorded.

N.    Reclassifications

Certain reclassifications have been made to prior year amounts to conform to the current year presentation.
On the Statement of Cash Flows, purchases and maturities of investment securities and foreign currency
denominated assets have been presented as gross amounts.

NOTE 2 – CASH AND CASH EQUIVALENTS

Cash and cash equivalent amounts held as of September 30, 2011 and 2010 are as follows:

 September 30 (In Thousands)                                         2011                      2010

 Cash and cash equivalents:
 U. S. government securities                                       $ 22,721,204             $ 20,436,050

 Short-term FCDAs:
    European euro                                                       4,277,368                4,264,817
    Japanese yen                                                        3,975,542                3,820,129
 Total short-term FCDAs                                                 8,252,910                8,084,946
 Total cash and cash equivalents                                    $ 30,974,114            $ 28,520,996

                                                                                                        14
                               DEPARTMENT OF THE TREASURY
                               EXCHANGE STABILIZATION FUND
                              NOTES TO FINANCIAL STATEMENTS
                                  September 30, 2011 and 2010



NOTE 2 – CASH AND CASH EQUIVALENTS (Continued)

On March 17, 2011 the Treasury Secretary authorized an intervention by the FRBNY in the form of a sale
of $500 million equivalent of Japanese yen, held by the ESF, against U.S. dollars. On March 17, the G-7
finance ministers and central bank governors issued a statement that “excess volatility and disorderly
movements in exchange rates” arising from events in Japan had “adverse implications for economic and
financial stability.” On, March 18, 2011, the FRBNY sold the $500 million equivalent of yen. Actual
settlement occurred on, March 23, and the ESF invested $500 million in overnight Treasury securities.

NOTE 3 – SECURITIES PURCHASED UNDER AGREEMENT TO RESELL

The FRBNY, on behalf of ESF, enters into transactions to purchase foreign-currency-denominated
government-debt securities under agreements to resell for which the accepted collateral is the debt
instruments, denominated in Euros, and issued or guaranteed in full by European governments. These
agreements are subject to daily margining requirements.

NOTE 4 – SPECIAL DRAWING RIGHTS

The SDR is an international reserve asset created by the International Monetary Fund (IMF) in 1969 to
supplement the existing reserve assets of IMF member countries, including the United States. In addition
to its role as a supplementary reserve asset, the SDR serves as a means of payment within the IMF, as
well as the unit of account for the IMF and several other international organizations. SDRs may be held
only by the official sector – IMF countries and certain institutions designated by the IMF as prescribed
holders. On several occasions SDRs have been allocated by the IMF to members participating in the
IMF’s SDR Department, including the United States. SDR transactions by the United States require the
explicit authorization of the Secretary of the Treasury.

The SDR’s value is based on a weighted average of a basket of key international reserve currencies issued
by IMF members (or monetary unions that include IMF members) which have been determined by the
IMF to be freely usable currencies. These currencies are the U.S. dollar, the Euro, the Japanese yen, and
the pound sterling. The SDR carries a variable interest rate, calculated weekly as a weighted average of
short-term interest rates of the SDR basket of currencies. The ESF’s SDR Allocations and Holdings (see
below) are revalued monthly, based on the SDR valuation rate calculated by the IMF, and unrealized
gains or losses on revaluation are recognized. SDR Holdings and SDR Allocations are reported as an
asset and liability respectively in the financial statements of the ESF.

SDR Allocations

SDRs, once allocated to the United States, are permanent resources unless:

    a. They are canceled by an 85 percent majority decision of the total voting power of the Board of
       Governors of the IMF;

    b. The SDR Department of the IMF is liquidated;

    c. The IMF is liquidated; or

                                                                                                      15
                               DEPARTMENT OF THE TREASURY
                               EXCHANGE STABILIZATION FUND
                              NOTES TO FINANCIAL STATEMENTS
                                  September 30, 2011 and 2010



NOTE 4 – SPECIAL DRAWING RIGHTS (Continued)

    d. The United States chooses to withdraw from the IMF or terminate its participation in the SDR
       Department.

Due to the fact that the SDRs are able to be withdrawn, the ESF carries a liability related to such
allocations.

Except for the payment of interest and charges on SDR allocations to the United States, the payment of
the ESF’s liability related to the SDR allocations is conditional on events listed above, in which the
United States has a controlling voice. Allocations of SDRs were made during 1970, 1971, 1972, 1979,
1980, 1981, and 2009.

As of September 30, 2011 and 2010, the value of SDR allocations to the United States was the equivalent
of $55.1 billion and $54.9 billion, respectively.

SDR Holdings

Pursuant to the Special Drawing Rights Act of 1968, as amended, SDRs allocated by the IMF to, or
otherwise acquired by the United States are also resources (holdings) of the ESF. SDR Holdings represent
transactions resulting from these SDR activities, primarily the result of IMF allocations. Other
transactions reported in this account are recorded as they are incurred and include any SDR acquisitions
and sales, interest received on SDR Holdings, interest charges on SDR Allocations, and other SDR
related activities, as well as valuation adjustments.

On May 11, 2011 25 million SDRs were purchased from the Bank of International Settlements. On June
29, 2011 two separate transactions with the Bank of International Settlements took place; 35 and 28.435
million SDRs were purchased respectively.

Pursuant to the Supplemental Appropriations Act, 2009 (P.L. 111-32), the United States consented to an
increase in its quota in the International Monetary Fund. Twenty-five percent of the quota was paid by the
United States using SDRs (equivalent to SDR 1,243.275 million).

Other SDR Activities

The U.S. Government receives remuneration in SDRs from the IMF on the U.S. claim on the IMF,
represented by the U.S. Reserve Position. ESF is the only agency within Treasury permitted to transact in
SDRs. SDRs received become the resources of ESF, as required by law, and ESF pays the dollar
equivalent to the U. S. Government’s Treasury General Account (TGA). The ESF's receipt of the SDRs
and payment of the dollar equivalent to the TGA are not simultaneous. Typically, the payment is several
weeks after the receipt of SDRs from the IMF. Therefore, the ESF must reimburse the TGA the interest it
earned on the dollar equivalent of the SDRs held on behalf of the TGA during the period which elapsed
between the receipt of the SDRs and the dollar payment to the TGA.




                                                                                                       16
                                DEPARTMENT OF THE TREASURY
                                EXCHANGE STABILIZATION FUND
                               NOTES TO FINANCIAL STATEMENTS
                                   September 30, 2011 and 2010



NOTE 4 – SPECIAL DRAWING RIGHTS (Continued)

ESF paid to the TGA $2,700 and $2,900 in fiscal years 2011 and 2010, respectively, in interest due on the
transferred dollars. The ESF did not sell SDRs to any participating members during fiscal year 2011 or
2010.

The following schedule reflects the activity related to SDR Holdings during fiscal years 2011 and 2010 in
SDR and dollar equivalent.

 September 30 (SDR In Thousands)                           2011                            2010

 Beginning balance                                          36,891,687                     36,573,014
 Interest credits on holdings                                  153,817                         87,324
 Interest charges on allocations                             (149,380)                       (83,558)
 Remuneration                                                   39,533                         15,195
 IMF annual assessment                                           (473)                          (288)
 IMF Quota Increase                                        (1,243,275)                              -
 Purchases                                                      88,435                        300,000
 Total SDR - Holdings                                       35,780,344                     36,891,687


 September 30 (Dollar Equivalent In
 Thousands)                                                2011                            2010

 Beginning balance                                 $       57,410,474                  $    57,945,186
 Interest credits on holdings                                  244,771                         134,513
 Interest charges on allocations                             (237,739)                       (128,710)
 Remuneration                                                   63,077                          23,470
 IMF annual assessment                                           (750)                            (437)
 IMF Quota Increase                                        (1,974,719)                                -
 Purchases                                                     140,775                         476,707
 Net gain/(loss) on valuation of holdings                      229,412                     (1,040,255)
 Total Dollar Equivalent – Holdings                $       55,875,301              $       57,410,474


The table above reflects the actual dollar equivalent amount of SDRs received or transferred by ESF.
Amounts within the financial statements computed on accrual basis will thus differ since actual SDR
movements occur shortly after the balance sheet date.




                                                                                                          17
                                DEPARTMENT OF THE TREASURY
                                EXCHANGE STABILIZATION FUND
                               NOTES TO FINANCIAL STATEMENTS
                                   September 30, 2011 and 2010



NOTE 5 – INVESTMENT SECURITIES AND OTHER FOREIGN CURRENCY DENOMINATED ASSETS

The amortized cost, gross unrealized holding gains and losses, and fair value of available-for-sale and held-to-
maturity debt securities by major security type and class of security at September 30, 2011 and 2010 were as
follows:
                                                       Gross                    Gross
                                                    Unrealized                Unrealized
September 30, 2011           Amortized               Holdings                Holding
(In Thousands)                 Cost                    Gains                 (Losses)                  Fair Value

 Available for sale:
   Other FCDAs            $ 3,028,305             $             -             $(173,342)        $   2,854,963
   German Bonds               2,010,188                     37,692              (29,249)            2,018,631
   French Bonds               1,310,036                     30,006              (17,459)            1,322,583
   French Notes               1,372,644                     36,998              (18,604)            1,391,038
   Japanese Bonds             7,183,099                    905,856               (4,914)            8,084,041
 Total                    $ 14,904,272            $       1,010,552       $ (243,568)            $ 15,671,256




                                                     Gross                      Gross
                                                   Unrealized                 Unrealized
September 30, 2010          Amortized               Holdings                  Holding
(In Thousands)               Cost                    Gains                    (Losses)               Fair Value

 Available for sale:
   Other FCDAs            $ 2,679,777                 $    167,965        $            -        $   2,847,742
   German Bonds               1,870,922                     34,242              (23,791)            1,881,373
   French Bonds               1,180,688                     46,889               (5,607)            1,221,970
   French Notes               1,590,177                     45,874               (7,527)            1,628,524
   Japanese Bonds             6,859,081                    914,548                     -            7,773,629
 Total                    $ 14,180,645            $       1,209,518       $     (36,925)         $ 15,353,238




Other FCDAs represent Euro denominated instruments issued by the Bank of International Settlements,
and typically mature within one year.



                                                                                                           18
                                  DEPARTMENT OF THE TREASURY
                                  EXCHANGE STABILIZATION FUND
                                 NOTES TO FINANCIAL STATEMENTS
                                     September 30, 2011 and 2010




NOTE 5 – INVESTMENT SECURITIES AND OTHER FOREIGN CURRENCY DENOMINATED ASSETS
(Continued)

Maturities of debt securities classified as available for sale were as follows at September 30, 2011:

   September 30, 2011 (In Thousands)                    Amortized Cost                     Fair Value
  Available-for-sale:
   Due within one year                                   $       6,986,733                 $       7,299,093
   Due after one year but before five years                      7,917,539                         8,372,163
  Total                                                  $     14,904,272                  $      15,671,256

Impairment Assessment

The ESF evaluates whether unrealized losses on investment securities indicate other-than-temporary
impairment. Based on this evaluation, ESF recognized no other-than-temporary impairment losses on any
securities in fiscal years 2011 and 2010.

Fair Value

The fair value of securities available for sale are measured using the hierarchy or lowest level input that is
significant to the fair value measurement of the investment in its entirety. The following table presents assets
that are measured at fair value on a recurring basis at September 30, 2011 and 2010:

                                                    Fair Value Measurements at Reporting Date Using

                                                   Quoted Prices
                                                    In Active             Significant
                                                     Markets                Other                Significant
                                                   For Identical          Observable            Unobservable
 September 30, 2011            Fair Value             Assets                Inputs                 Inputs
 (In Thousands)               At 9/30/2011           (Level 1)             (Level 2)              (Level 3)

  Available for sale:
   Other FCDAs                $ 2,854,963             $ 2,854,963          $           -           $           -
   German Bonds                  2,018,631                2,018,631                    -                       -
   French Bonds                  1,322,583                1,322,583                    -                       -
   French Notes                  1,391,038                1,391,038                    -                       -
   Japanese Bonds                8,084,041                8,084,041                    -                       -
 Total                         $15,671,256            $ 15,671,256                     -                       -




                                                                                                               19
                                DEPARTMENT OF THE TREASURY
                                EXCHANGE STABILIZATION FUND
                               NOTES TO FINANCIAL STATEMENTS
                                   September 30, 2011 and 2010



NOTE 5 – INVESTMENT SECURITIES AND OTHER FOREIGN CURRENCY DENOMINATED ASSETS
(Continued)

                                                Fair Value Measurements at Reporting Date Using

                                               Quoted Prices
                                                In Active            Significant
                                                 Markets               Other         Significant
                                               For Identical         Observable     Unobservable
 September 30, 2010          Fair Value           Assets               Inputs          Inputs
 (In Thousands)             At 9/30/2010         (Level 1)            (Level 2)       (Level 3)

  Available for sale:
   Other FCDAs              $ 2,847,742           $ 2,847,742        $         -      $             -

   German Bonds                 1,881,373            1,881,373                 -                    -
   French Bonds                 1,221,970            1,221,970                 -                    -

   French Notes                 1,628,524            1,628,524                 -                    -
   Japanese Bonds               7,773,629            7,773,629                 -                    -
 Total                       $15,353,238          $ 15,353,238                 -                    -




NOTE 6 – ACCUMULATED OTHER COMPREHENSIVE INCOME

The accumulated balances for other comprehensive income are as follows:

                                                                      Accumulated Other
 September 30, 2011 (In Thousands)                                   Comprehensive Income
 Balance at September 30, 2010                                                       $      1,172,593
 Unrealized holding gains/(losses)
       arising during the period                           $       239,221
 Less: reclassification of gains recognized
       as net income                                              (644,830)
      Other comprehensive loss                                                              (405,609)
 Balance at September 30, 2011                                                       $        766,984




                                                                                                   20
                                 DEPARTMENT OF THE TREASURY
                                 EXCHANGE STABILIZATION FUND
                                NOTES TO FINANCIAL STATEMENTS
                                    September 30, 2011 and 2010




NOTE 6 – ACCUMULATED OTHER COMPREHENSIVE INCOME (Continued)

                                                                          Accumulated Other
 September 30, 2010 (In Thousands)                                       Comprehensive Income
 Balance at September 30, 2009                                                              $       1,433,970
 Unrealized holding gains/(losses)
       arising during the period                               $       42,555
 Less: reclassification of gains recognized
       as net income                                                 (303,932)
      Other comprehensive loss                                                                      (261,377)
 Balance at September 30, 2010                                                              $     1,172,593


NOTE 7 – CERTIFICATES ISSUED TO FEDERAL RESERVE BANKS

The Special Drawing Right Act of 1968 authorized the Secretary of the Treasury to issue Special Drawing
Right certificates (SDRCs), not to exceed the value of SDR holdings, to the Federal Reserve System in return
for interest-free dollar amounts equal to the face value of certificates issued (SDR monetization). The
certificates may be issued for the purpose of financing the acquisition of SDRs from other countries or to
provide resources for financing other operations of the ESF. Certificates issued have no set maturity and are to
be redeemed by the ESF at such times and in such amounts as the Secretary of the Treasury may determine
(SDR demonetization). As of September 30, 2011 and 2010, the amount of certificates issued to Federal
Reserve Banks was $5.2 billion.


NOTE 8 - FAIR VALUES OF FINANCIAL INSTRUMENTS

Financial Instruments (FASB ASC 825-10) requires all entities to disclose the fair value of financial
instruments, where feasible, in an effort to provide financial statement users with information in making
rational investment and credit decisions.

To estimate the fair value of each class of financial instrument, the ESF applied the following methods
using the indicated assumptions:

Cash and Cash Equivalents

Cash and Cash Equivalents consist of U.S. government securities and FCDAs, and are reported in the
Statements of Financial Position at amounts that approximate their fair values.

Securities Purchased Under Agreement to Resell

The fair value is based upon quoted market interest rates for similar securities.



                                                                                                              21
                                DEPARTMENT OF THE TREASURY
                                EXCHANGE STABILIZATION FUND
                               NOTES TO FINANCIAL STATEMENTS
                                   September 30, 2011 and 2010




NOTE 8 - FAIR VALUES OF FINANCIAL INSTRUMENTS (Continued)

Certificates Issued to Federal Reserve Banks

The fair value of these certificates is based on the face value of the certificate as they are not subject to
market or interest rate risk nor are they subject to fluctuations in exchange rates.

Special Drawing Right (SDR) Holdings and SDR Allocations

The fair values are based on quoted prices published weekly by the IMF.

Investment Securities and Other FCDAs

The fair value of Investment Securities and Other FCDAs are based upon quoted market and current
exchange rates.

The estimated fair values of the ESF’s financial instruments at September 30, 2011 and 2010 are as
follows:

                                                  2011                                    2010
 September 30, (In                    Carrying                               Carrying
 Thousands)                           amount             Fair value          amount              Fair value
 Assets:
    Cash & Cash Equivalents           $30,974,114        $30,974,114       $28,520,996           $28,520,996
    Securities Purchased
      Under Agreement to
         Resell                         2,505,269          2,505,269          2,503,143            2,503,143
 Investment Securities and
 Other Foreign Currency
 Denominated Assets                    15,671,256         15,671,256         15,353,238           15,353,238
   SDR Holdings                        55,875,301         55,875,301         57,410,474           57,410,474
 Liabilities:
    Certificates Issued to
      Federal Reserve Banks             5,200,000          5,200,000          5,200,000            5,200,000
    SDR Allocations                    55,149,673         55,149,673         54,957,909           54,957,909




                                                                                                              22
                               DEPARTMENT OF THE TREASURY
                               EXCHANGE STABILIZATION FUND
                              NOTES TO FINANCIAL STATEMENTS
                                  September 30, 2011 and 2010



NOTE 9 – COMMITMENTS AND CONTINGENCIES

A.    Foreign Currency Denominated Agreements

Foreign currency denominated agreements that exist between the Treasury and foreign entities or
governments provide for drawings of dollars by those entities or governments and drawings of foreign
currencies by the Treasury. The Treasury enters into these agreements through the ESF. Any balance the
ESF may hold under such agreements is held until the foreign entity or government repays the dollar
counterpart of that balance. The ESF is exposed to credit risk on foreign currency denominated
agreements in the event of default by counterparties to the extent of any amounts that have been recorded
in the Statement of Financial Position. Market risk would occur as a result of fluctuations in currency
exchange rates. Under these agreements, the ESF receives repayment of an agreed-upon amount in dollars
regardless of currency fluctuations. With the exception of the Mexico agreement below in Section B,
there were no foreign currency denominated agreements as of September 30, 2011 and 2010.

B.    Exchange Stabilization Agreements

The ESF has an Exchange Stabilization Agreement (ESA) with Mexico. In April 1994, the Treasury
signed the North American Framework Agreement, which includes the ESA with Mexico. The ESA
provides for a $3 billion standing swap line between the Bank of Mexico and the ESF.

The amounts and terms (including the assured source of repayment) of any new borrowings under the
North American Framework Agreement are subject to certain requirements of the agreement that specify
the transactions are exchange rate neutral for the ESF and would bear interest referenced to U.S. Treasury
bills. Drawings are contingent on certain other conditions being met.

There were no drawings outstanding on the ESF swap line as of September 30, 2011 and 2010. On
December 13, 2010, the Treasury renewed its participation in the agreement until December 2011.


NOTE 10 – SUBSEQUENT EVENTS

We evaluated and have had no subsequent events through December 1, 2011, the date that these financial
statements were available to be issued.




                                                                                                       23
